U.S. Department of Justice
Office of the Inspector General




A Review of ICITAP’s Screening
Procedures for Contractors Sent to
Iraq as Correctional Advisors




                    DRAFT



                                  Office of the Inspector General
                                                   February 2005
I. INTRODUCTION

       The International Criminal Investigative Training Assistance Program
(ICITAP) is an office within the Criminal Division of the Department of Justice
(DOJ) that provides training for foreign law enforcement agencies in new and
emerging democracies and assists in the development of police forces relating
to international peacekeeping operations. Since its creation in 1986, ICITAP
has conducted training programs in numerous countries throughout the world,
including Haiti, Bosnia, and Kosovo. In 2003, after the fall of Saddam
Hussein, ICITAP, at the behest of the Department of Defense’s Office of
Reconstruction and Humanitarian Assistance, established a program through
which it provided subcontractor advisors and trainers to assist with the
reconstruction and development of the Iraqi police and prison systems. The
program was paid for with funds supplied by the Department of State.

       Following public reports of allegations of prisoner abuse by military
personnel at the Abu Ghraib prison in Iraq, Senator Charles Schumer wrote a
letter to the Office of the Inspector General (OIG), dated June 2, 2004, in which
he raised concerns that four of the corrections advisors ICITAP had sent to
Iraq – Lane McCotter, Terry Stewart, Gary DeLand, and John Armstrong – were
unqualified because of allegations of serious misconduct when they served as
high-level, state corrections officials in the United States. In particular,
Senator Schumer noted that allegations had been made against the men in
several civil lawsuits relating to the treatment of prisoners or their
management of prison systems during their U.S. corrections careers. Senator
Schumer requested that the OIG investigate and report on “the criteria used to
select [these individuals as corrections advisors in Iraq], the vetting process to
which they were subjected, the identities of the officials who selected them, the
extent to which concerns about their backgrounds were known by the officials
who vetted and selected them, and the reasons such concerns were
disregarded when these individuals were appointed.” The DOJ joined in
Senator Schumer’s request that the OIG examine the matter.

       In response to these requests, we reviewed the recruitment, screening,
and selection of the four ICITAP corrections advisors identified by Senator
Schumer, as well as the four other corrections advisors who served with them
in Iraq. In addition, we examined the policies and procedures for conducting
background investigations on ICITAP subcontractors.

      This report details the results of the OIG’s review. During this review,
the OIG interviewed more than 25 individuals, including McCotter, Stewart,
DeLand, and Armstrong, as well as their four fellow corrections advisors. In
addition, we reviewed hundreds of pages of documents provided by ICITAP, the
Criminal Division’s Office of Administration (Office of Administration), and the
subcontractors themselves regarding these individuals and the clearance
process.

        In sum, our review concluded that although ICITAP conducted limited
background checks on these individuals prior to their deployment to Iraq,
these checks were not designed to and did not reveal information about the
civil lawsuits cited in Senator Schumer’s letter. Accordingly, because ICITAP
was unaware of the allegations made in these lawsuits, it did not consider
them when making the decision to hire these individuals as advisors. We also
determined, however, that even had ICITAP been aware of these lawsuits prior
to retaining the advisors, it would not have viewed them as sufficient to
disqualify any of the men from serving in Iraq. We also reviewed whether any
of these advisors were connected to abuse of prisoners housed at the Abu
Ghraib prison and found no evidence to suggest that they played any role in
the abuses. Finally, our review found broader problems related to the policies
and procedures for conducting background investigations on ICITAP
subcontractors. While ICITAP has made various improvements to its clearance
process since our review was initiated, we make several recommendations to
improve the process further.

II. BACKGROUND

       Although ICITAP is part of the DOJ, ICITAP programs may be instituted
at the request of the National Security Council and the Department of State
(State). ICITAP does not appear as a “line item” in the DOJ budget. Rather,
the majority of ICITAP funds come from project-specific funding provided by
State and the U.S. Agency for International Development.

       ICITAP describes its mission as supporting “U.S. criminal justice and
foreign policy goals by assisting foreign government[s] in developing the
capacity to provide professional law enforcement services based on democratic
principles and respect for human rights.”1 ICITAP accomplishes this mission
through a combination of DOJ employees and subcontractors. Most ICITAP
subcontractors act as advisors and instructors in the various foreign countries
in which ICITAP is operating programs. ICITAP employees oversee the
subcontractors’ work, both from ICITAP headquarters in Washington, D.C. and
as Program Managers in the field. Many ICITAP subcontractors, as well as
many ICITAP managers, are former federal, state, and local law enforcement
officials.


      1   www.usdoj.gov/criminal/icitap (December 2004).



                                             2
      At the time ICITAP’s Iraq program began, ICITAP retained
subcontractors through a contract with Science Applications International
Corporation (SAIC).2 Although the subcontractors are ostensibly SAIC
employees, many, including the Iraq corrections advisors at issue here, are
recruited directly by ICITAP. ICITAP has final approval over all hiring
decisions.3

       In order to hire a subcontractor for one of its programs, ICITAP
completes a document called a Statement of Work. The Statement of Work
details the work activities, term of employment, travel itinerary, and travel and
allowance expenses for a subcontractor position. It also identifies by name the
individual ICITAP has chosen to fill the position. In order for a Statement of
Work to be valid, it must be signed by the Contracting Officer Technical
Representative (COTR) for the ICITAP/SAIC contract.4 The signed Statement of
Work, together with a delivery order, is provided to SAIC and authorizes SAIC
to hire and pay the specified individual.

       Pursuant to Criminal Division policy, all ICITAP subcontractors must
undergo a pre-employment background check. The nature and extent of the
background check required depends upon the risk level that is assigned to the
position the subcontractor will fill. The policy identifies three risk levels – high,
moderate, and low – and places the initial responsibility for designating the risk
level associated with a particular position on ICITAP. The actual background
checks themselves are performed by Personnel Security Specialists (Security
Specialists). The Security Specialists are employed by the Criminal Division
Security Program Staff (SPS), which is part of the Office of Administration. As
discussed in more detail below, historically ICITAP has designated virtually all
its subcontractor positions as low risk. This was the designation assigned to
the subcontractor positions for the Iraq program.

      The Criminal Division also trains prosecutors and judges in foreign
countries through its Overseas Prosecutorial Development, Assistance and
Training (OPDAT) programs. In contrast to ICITAP, OPDAT programs employ
few subcontractors, relying primarily on federal prosecutors who are detailed
for particular assignments.



       2 The SAIC contract is scheduled to expire in March 2005. Bids for the new contract

were submitted in November 2004, and the DOJ is in the process of reviewing them.

       3 In general, ICITAP fills subcontractor positions by identifying at least three candidates

and then writing a letter of justification for the individual it considers to be the best qualified.

       4The COTR is not an ICITAP employee. Rather, he is part of the International Training
and Financial Management Section of the Office of Administration.



                                                 3
      ICITAP and OPDAT programs are managed by the Chief of International
Development and Training. Serving under the Chief is a Director of each
program. Under the ICITAP Director are a Deputy Director and five Assistant
Directors, four of whom share responsibility for particular geographic areas of
the world and one of whom oversees operations support. Program managers
and program analysts work under the direction of the Assistant Directors.5

       During the relevant time period, Joseph Jones served both as the Chief
of International Development and Training and as the Acting Director of
ICITAP. At the inception of the Iraq program, Richard Mayer was the Acting
Deputy Director of ICITAP. When Mayer retired in February 2004, Gary Barr
became the Acting Deputy Director while continuing to serve as the Assistant
Director for Asia programs. Because the Iraq program was part of the Asia
portfolio, it fell within Barr’s area of responsibility.

       Two program analysts at ICITAP headquarters were assigned to the Iraq
program and worked under Barr's direction: one a long-time employee and one
a subcontractor who was hired specifically for the Iraq program. These
analysts had primary responsibility for compiling the paperwork necessary to
perform background checks on subcontractors and for ensuring that this
paperwork was delivered to the SPS. In addition, the program analysts were
also responsible for preparing the Statements of Work and for providing them
to the COTR for his signature. Both the security paperwork and the
Statements of Work were also reviewed and signed by an ICITAP manager.

        At the SPS, one Security Specialist had primary responsibility for
conducting the background checks on ICITAP subcontractors. She was hired
in May 2002, and until approximately January 2004, was supervised by Rob
Haufe, Chief of Security Programs Staff. Haufe’s supervisor was Linda
Cantilena, Assistant Director for Security, Procurement & Property
Management. From January 2004 to May 2004, Cantilena acted as the
Security Specialist’s direct supervisor until Gary Llewellyn was hired to replace
Haufe. Overall management of the Office of Administration, including the SPS
staff, is entrusted to the Executive Officer. Sandra Bright was the Executive
Officer until she retired in August 2003. In September 2003, Steven Parent
became the Executive Officer.6




       5 Deputy Assistant Directors work under each of the Assistant Directors except for the

Assistant Director for Operations. Deputy Assistant Directors act as lead program analysts
and provide guidance to other program analysts, but do not have supervisory authority.

       6   For organization charts of ICITAP and the Office of Administration, see Exhibit 1.



                                                 4
III. THE ORIGIN OF THE ICITAP IRAQ PROGRAM

      On January 20, 2003, a post-war planning office for Iraq was established
in the Department of Defense called the Office of Reconstruction and
Humanitarian Assistance (ORHA). ORHA was staffed by officials detailed from
departments and agencies throughout the federal government, including DOJ
and State.

      Both ICITAP and OPDAT sent representatives to ORHA. Richard Mayer
was the ICITAP representative, while OPDAT was represented by William Lantz.
Mayer and Lantz reported to ORHA on or about January 28, 2003.

       Mayer told the OIG that upon their arrival at ORHA, he and Lantz began
drafting plans for a post-war system of justice in Iraq, including police, courts,
and corrections. He said that he took primary responsibility for police
planning, while Lantz focused on the courts. According to Mayer, prison
planning was initially assigned to Clifford Aims, a State Department
representative to the ORHA.

       In March 2003, ORHA officials decided that a multidiscipline team
should be assembled and sent to Iraq to assess and make recommendations
regarding the Iraqi police, corrections, and judicial systems (the Assessment
Team). The Assessment Team, which traveled to Iraq in May 2003, ultimately
numbered 25 individuals and included police and corrections advisors, judges,
prosecutors, and a court clerk. ICITAP was given responsibility for staffing
both the police and corrections positions on the Assessment Team. In
addition, although the exact number of positions and amount of funding that
would be available was not known at that time, it also was understood that
following the departure of the Assessment Team from Iraq, ICITAP would
continue to recruit and hire police and corrections advisors for the Iraq
program via the SAIC contract.

       Although the task of assembling the needed police expertise was familiar
to ICITAP from its previous overseas programs, it had limited experience in
staffing corrections programs. Accordingly, neither ICITAP nor SAIC had an
existing pool of qualified corrections candidates from which to staff the
Assessment Team. Nor could ICITAP managers – whose prior experience was
primarily in policing – draw on their usual contacts for recommendations.
ICITAP therefore undertook a search to locate qualified individuals for the
corrections positions.

      After conducting a search, which is described in greater detail below,
ICITAP selected four former state and federal corrections officials to serve as
corrections advisors on the Assessment Team: Lane McCotter, Terry Stewart,
Larry DuBois, and Gary DeLand. McCotter, Stewart, and DuBois traveled to
Iraq with the other members of the Assessment Team in May 2003. DeLand,


                                        5
whose departure was delayed due to difficulties in securing his passport and
visa, arrived in Iraq on or about June 25. For ease of reference, we will refer to
this group of men as the “McCotter Team.” By September 3, 2003, all four
members of the McCotter Team had left Iraq.7

       After the members of the McCotter Team had left Iraq, ICITAP deployed
four new corrections advisors to Iraq: John Armstrong, Charles Ryan, Joseph
(Terry) Bartlett, and Richard Billings. We will refer to this group of men as the
“Bartlett Team.” Like the McCotter Team, all the men on the Bartlett Team
were former, high-level corrections officials. Bartlett, Ryan, and Armstrong
arrived in Iraq on September 10, 2003. Billings joined them on October 15.
Billings left Iraq to return to the United States on April 18. Armstrong soon
followed, arriving back in the United States on May 4. Ryan and Bartlett
continued to serve as ICITAP subcontractors in Iraq until December 2004.

      Following placement of the Bartlett Team in Iraq, ICITAP, with help from
SAIC, continued to recruit and retain under the SAIC contract both police and
corrections subcontractors for the Iraq program. As of January 1, 2005, there
were 275 ICITAP subcontractors in Iraq and Jordan: 151 police trainers in Iraq,
54 corrections advisers and trainers in Iraq, and 70 police trainers at the
ICITAP-founded Jordan International Police Training College, which exclusively
trains Iraqi law enforcement personnel.

IV. THE SELECTION OF THE MCCOTTER TEAM

        As noted above, while Mayer and Lantz were focused on police and court
planning at ORHA, State Department representative Clifford Aims had begun to
address Iraqi prison needs. Accordingly, on or about April 1, 2003, Gary Barr
contacted Aims regarding staffing the corrections positions on the Assessment
Team. In response, Aims sent to Barr, via electronic mail (e-mail), a two-page
list of potential candidates (the Aims List). According to Aims’s e-mail to Barr,
the Aims List had been compiled at his request by officials of the Federal
Bureau of Prisons (BOP) and the American Correctional Association (ACA).8
The first page of the Aims List contained the names of ten individuals
recommended by the BOP, including McCotter, DuBois, and Armstrong. The
second page contained the names of eight others recommended by the ACA.



        7 Another individual, who also traveled to Iraq as part of the Assessment Team, is

described in some ICITAP documents as a corrections consultant. However, this individual’s
background was in city management and public administration, not corrections, and in Iraq
his role was limited to administration and logistics.

       8 The ACA was founded in 1870 and is the oldest association for the correctional
profession. The ACA publishes guidelines for corrections, provides certifications and
professional development opportunities, conducts research, and hosts annual conferences.


                                             6
In his e-mail, Aims stated that he had “no preferences” among the candidates
and considered them all to be “top recommendations.”9

      Because he was about to depart on a business trip, Barr gave the list to
William Baker, then the ICITAP Assistant Director for Latin America and the
Caribbean, and asked Baker to begin recruiting both police and corrections
candidates for the Assessment Team. Baker told the OIG that upon reviewing
the Aims List, he immediately focused on the name Larry DuBois. Baker
explained that he and DuBois had worked together in Massachusetts in the
1990s – Baker as the Massachusetts Commissioner of Public Safety and
DuBois as the Director of Corrections. Baker said he called DuBois and
inquired whether he would be interested in serving on the Assessment Team.
Baker said he also asked DuBois to help recruit other qualified candidates.

        DuBois told the OIG that he called Baker back the next day and told
him he was interested in joining the Assessment Team and that he would
assist Baker in recruiting additional candidates. Baker therefore sent to
DuBois via facsimile a copy of the Aims List on April 2, 2003.

       DuBois told the OIG that he knew many of the people on the Aims List
and that he selected several of them to contact. He said he also contacted
other individuals whose names were not on the Aims List but whom he knew
either from his professional associations or were recommended to him by other
individuals. DuBois said that he contacted about ten people in total.

       Among the individuals DuBois contacted who were willing and able to go
to Iraq were McCotter, DeLand, and Stewart. As noted above, McCotter and
Armstrong had been recommended by the BOP. Neither Stewart nor DeLand
were on the Aims List. DuBois told the OIG that DeLand was recommended to
him by McCotter, and Stewart was recommended by George Camp, Executive
Director of the Association of State Correctional Administrators, and one of the
individuals named on the BOP portion of the Aims List. Like DuBois, who in
addition to his six years of service as the Director in Massachusetts had
worked for the BOP for 26 years serving as both a warden and a Regional
Director, McCotter, Stewart, and DeLand all were former, high-level corrections
officials, with significant experience in the corrections field.

      McCotter began his corrections career in the military, where he served for
three years as the Colonel-Commandant of the United States Disciplinary
Barracks at Fort Leavenworth, Kansas. After leaving the military, he served as
director of three different state corrections departments: Texas from June
1985 – March 1987; New Mexico from March 1987 – December 1990; and Utah
from January 1992 – July 1997. Following his retirement from the Utah
system in 1997, McCotter worked briefly with DeLand in DeLand’s corrections

      9   E-mail from Clifford Aims to Gary Barr, April 1, 2003.


                                               7
consulting business. McCotter thereafter accepted a position as Director of
Business Development for Management and Training Corporation (MTC), a
private company that manages and operates juvenile and adult correctional
facilities for federal, state, and local governments. He was employed at the
MTC at the time he was retained by ICITAP.

       Stewart was employed by the Arizona Department of Corrections for 17
years. During his career, he served as Assistant Director, Deputy Director, and
finally, from December 1995 until his retirement in November of 2002, as
Director of the Department. After Stewart left the Arizona Department of
Corrections, he established Advanced Correctional Management, a consulting
and prison management firm. In addition, following his return from Iraq,
Stewart served as a correctional advisor in Haiti for the Department of State.

      DeLand was employed by the Salt Lake County Sheriff’s Office for more
than 20 years, 7 of which he spent as the administrator of the County’s jail.
From 1985 to 1992, he served as the Executive Director of the Utah
Department of Corrections. Since leaving the Utah Department, DeLand has
continued to run a corrections consulting business he began early in his
career. He has served as a litigation consultant or expert witness in more than
100 prison litigation cases.

       According to DuBois, McCotter, DeLand, and Stewart all agreed to be
considered for the Assessment Team, and he therefore forwarded their
resumes, together with his own, to Baker at ICITAP. DuBois said that during
this period he also spoke to Armstrong, who was interested but not available at
that time due to other commitments. Armstrong did, however, forward his
resume to ICITAP for future consideration and ultimately was chosen to be part
of the Bartlett Team.

       Shortly after Baker began to identify possible candidates for the
corrections positions, the newly hired ICITAP Program Manager arrived at
ICITAP headquarters in Washington, D.C. Prior to his selection as the Iraq
Program Manager, he had been working as the Chief of Staff for the Kosovo
Police Service School. He left the Iraq program in September 2003 and served
as the ICITAP Senior Technical Advisor in the Phillippines until November
2004.

      The Program Manager told the OIG that when he arrived at
headquarters, Baker briefed him on his recruitment efforts for the Assessment
Team. Baker told the OIG that he provided the Program Manager with two
stacks of resumes, one for police candidates and one for corrections
candidates. Included in the corrections stack were the resumes of McCotter,
Stewart, DuBois, and DeLand.




                                       8
      The Program Manager told the OIG that based on his conversations with
Baker, he believed that ICITAP had already essentially selected McCotter,
Stewart, and DuBois for the corrections team by the time he became involved
in the hiring process. He said that he nevertheless called all three men and
spoke with them about their backgrounds and experience. Then, after
conferring with Baker and Mayer, he confirmed their selection for the
Assessment Team.

        Although the Program Manager did not recall DeLand as part of this
"pre-selected" group, according to Baker, DeLand's resume was among those
he provided to the Program Manager. Moreover, DeLand recalled being
contacted by someone at ICITAP about the Assessment Team during this
period. In any event, DeLand also was selected to become part of the
Assessment Team, but he was unable to leave in May with the others due to a
delay in obtaining his passport and visa.

       On April 23, 2003, McCotter, Stewart, and DuBois attended an
orientation session at ICITAP headquarters. There they met in person the
Program Manager and Mayer and were given additional information about the
Iraq assignment. On or about May 4, the three men traveled together with the
other members of the Assessment Team to Fort Bliss in El Paso, Texas, where
they received training, equipment, and medical clearance. They departed for
Iraq, by way of Kuwait, on Sunday, May 11, and after several days of travel,
arrived in Baghdad on May 15. As noted above, DeLand joined them in Iraq on
June 25, 2003.

      DuBois left Iraq to return to the United States on June 27, 2003.
Stewart soon followed, leaving Iraq on July 3. DeLand and McCotter stayed in
Iraq until September 2 and 3 respectively. McCotter returned to the United
States temporarily for about a two-week period starting July 27 to attend a
family funeral. Before returning to Iraq on or about August 12, McCotter
attended an ACA meeting in Nashville, Tennessee, where he made a
presentation regarding the ICITAP Iraq program and actively recruited
replacements for himself and the other members of the McCotter Team.

V. THE SELECTION OF THE BARTLETT TEAM

      Several days after the last member of the McCotter Team left Iraq,
Bartlett, Ryan, and Armstrong arrived in Baghdad. Billings joined them in
October. As previously mentioned, the members of the Bartlett Team were
former corrections officials with many years of corrections experience.

       During his 20-year military career, Bartlett served in several managerial
positions in military prisons, including as the Deputy Commandant for the
United States Disciplinary Barracks at Fort Leavenworth, Kansas. Following
retirement from the military, he served as the Deputy Director and the Director


                                       9
of Operations for the Utah Department of Corrections for almost four years.
After leaving the Utah Department of Corrections, Bartlett was employed by the
MTC as an Accreditation Manager, and later as a Senior Warden for a medium
security prison. In 2000, Bartlett left the MTC and began his own consulting
company.

       Armstrong was employed by the Connecticut Department of Corrections
for over 26 years, where he rose through the ranks from corrections officer to
Commissioner. After serving two four-year terms as Commissioner, he retired
from the Connecticut Department in April 2003.

      Billings began his career as a correctional officer for the Utah
Department of Corrections in 1974. At the time of his retirement in 1998, he
was the Special Operations Unit Commander for the Department, a position he
had held for nine years. Since his retirement, he has been employed by the
Salt Lake County Sheriff’s Office.

       Ryan was employed by the Arizona Department of Corrections for over 25
years. He served as the Deputy Director of Prison Operations for seven years
and then as the Acting Director of the Department for the six months prior to
his retirement in June 2003.

      Armstrong first came to ICITAP’s attention as one of the individuals
recommended by the BOP on the Aims List. DuBois had contacted Armstrong
in April 2003, and although he was not available to go to Iraq at that time, he
sent his resume to ICITAP for later consideration. Bartlett and Ryan became
candidates for the Iraq program after being recruited by McCotter at the ACA
conference in August 2003.

       Although it is not entirely clear who at ICITAP officially made the decision
to select Bartlett, Ryan, and Armstrong, Ryan told the OIG that he recalled
speaking with Mayer shortly after returning from the ACA conference and
accepting the Iraq assignment from Mayer. Armstrong also told the OIG that
he recalled speaking with Mayer and believed that Mayer was involved in the
decision to select him.

      Ryan, Bartlett, and Armstrong reported to ICITAP headquarters on
September 3, 2003, for an orientation session. McCotter told the OIG that he
stopped in Washington, D.C. on his way home from Iraq to attend this session
and to brief the three men on the situation in Iraq and on the efforts he and the
others had made during their time there. Following this orientation session,
Ryan, Bartlett, and Armstrong spent about a week at Fort Belvoir, Virginia, and
then traveled to Iraq, arriving in Baghdad on September 15, 2003. Armstrong
returned to the United States on May 4, 2004, ending his association with
ICITAP at that time. Bartlett and Ryan continued to serve in Iraq until
December 2004.


                                        10
       Billings told the OIG that he was first contacted about the possibility of
going to Iraq on behalf of ICITAP by DeLand in April 2003. Billings and
DeLand had known each other for many years and had worked together in
Utah. Billings said he told DeLand he was interested in being considered and
that DeLand said he would have someone from ICITAP contact him. Billings
said that for reasons unknown to him, no one from ICITAP contacted him for
months. It was not until October 2003 that Billings was placed under contract
with SAIC to work on the ICITAP Iraq program. On October 4, he attended an
orientation session at ICITAP’s headquarters, where he was briefed by
McCotter. Billings arrived in Baghdad on October 14, 2003, and left Iraq on
April 18, 2004.

VI. BACKGROUND CHECKS FOR THE MCCOTTER AND BARTLETT TEAMS

       As noted above, DOJ Criminal Division policy requires that all
subcontractor candidates undergo a pre-employment background check
commensurate with the level of risk associated with the position in which they
will serve. In accordance with this policy, some form of background check was
performed on seven of the eight members of the McCotter and Bartlett Teams
prior to their deployment to Iraq. The exception was Billings who, either
because ICITAP never submitted his file to the SPS or because the file was
misplaced by the SPS, did not undergo any pre-deployment background check.
ICITAP conducted further research into the backgrounds of all eight men in
May and June 2004, after Senator Schumer raised concerns about the
qualifications of some of them.

     Below we first discuss the Criminal Division policy regarding background
checks for subcontractors and how it was applied to the McCotter and Bartlett
Teams prior to their deployment to Iraq. We then discuss the post-deployment
checks ICITAP conducted.

      A. Pre-Deployment Checks

            1. Criminal Division Policy Relating to Subcontractor Background
               Checks

       At the time the McCotter and Bartlett Teams were hired, Criminal
Division policy regarding subcontractor background checks was contained in a
July 2002 policy memorandum, Criminal Division Administrative Policy
Memorandum No. 60-3 (Policy 60-3) (July 29, 2002) (Exhibit 2). In short, Policy
60-3 requires that all subcontractors who will not require access to classified
information in the performance of their duties be subject to a background
check commensurate with the level of risk associated with the position they will
fill. The policy places the responsibility for determining that risk level on the
hiring section. In making this assessment, the hiring section is supposed to
consider “the damage that an untrustworthy contractor could cause to the


                                       11
efficiency or the integrity of Criminal Division operations” and compare “the
contractor’s duties, responsibility, and access with those of Department
employees in similar positions.”

      Policy 60-3 identifies three levels of risk for subcontractor positions –
high, moderate, and low – and defines these risk levels as follows:

       High Risk: Those sensitive positions with the potential for
       exceptionally serious impact involving duties especially
       critical to the mission of the Criminal Division with broad
       scope of policy or program authority, such as policy
       development or implementation; higher-level management
       assignments; independent spokespersons or non-
       management positions with authority for independent
       action; law enforcement, or significant fiduciary and
       procurement authority and responsibilities.

       Moderate Risk: Those sensitive positions that have the
       potential for moderate to serious impact involving duties very
       important to the mission of the Criminal Division with
       significant program responsibilities and delivery of customer
       services to the public, such as an assistant to policy
       development and implementation; mid-level management
       assignments; non-management positions with authority for
       independent or semi-independent action; or delivery of
       service positions that demand public confidence or trust.

       Low Risk: Those non-sensitive positions that do not fall into
       any of the above categories.

       Policy 60-3 also spells out the background checks required for each level
of risk. Subcontractor candidates identified as high risk are required to
undergo a limited background investigation, which includes a personal subject
interview, national agency check with inquiries (NACI),10 credit check, written
inquiries, record searches, and personal interviews covering specific areas, plus
vouchering of their previous two employers or their employers for the last two
years, whichever is greater. Candidates for positions identified as moderate
risk are required to undergo an NACI and the same vouchering done for those
designated high risk. Candidates for positions identified as low risk are
required to undergo a Federal Bureau of Investigation (FBI) name and
fingerprint check. For the name check, the FBI reviews its investigative files to

       10  An NACI includes searches of government investigative databases and written
inquiries to current and past employers, schools attended, references, and local law
enforcement authorities.



                                             12
see if the individual is named in other FBI investigations. For the fingerprint
check, the FBI Criminal Justice Information Service checks its files to ensure
that the individual does not have a prior arrest history.

      To facilitate the hiring of subcontractors, Policy 60-3 provides that the
hiring section may request authority to hire a subcontractor pending the
completion of the full background check. This process, which is referred to as
a waiver, may be requested in “unusual or emergency circumstances” and “will
not be considered if the security papers [concerning the subcontractor] contain
unresolved derogatory information.” To seek a waiver, the hiring section
completes Form USA 237, “Request for Waiver of Preappointment Investigation
Requirements of the U.S. Department of Justice Personnel Security
Regulations” (Waiver Form). The Waiver Form is to be signed by the Section
Security Officer or senior-level management official for the hiring section and
“must include a detailed explanation why [the section] cannot wait for
completed investigation.”

       As with full background checks, Policy 60-3 sets forth different waiver
requirements depending upon the risk level assigned to the position. For high-
risk positions, a waiver may be granted upon completion of an FBI fingerprint
check, vouchering of previous employers, and a favorable review of security
paperwork, including a credit check. Moderate-risk positions require either an
FBI fingerprint check or National Crime Information Center (NCIC) check, and a
favorable review of security paperwork, including a credit check.11 Finally, a
waiver may be granted for low-risk positions upon completion of an NCIC
check.

               2. ICITAP Procedures for Clearing Subcontractors

      In this section, we describe the general process ICITAP used for obtaining
clearances for subcontractors at the time that the McCotter and Bartlett Teams
were retained.

      Once ICITAP selected a candidate for a program, the responsible program
analyst, or in some cases SAIC personnel, would send the candidate a packet
of paperwork to be completed and returned. The forms sent to the candidate
included the following:




       11 NCIC is a computerized index of criminal justice information (such as criminal

record history information, fugitives, stolen properties, missing persons) run by the FBI. It is
available to federal, state, and local law enforcement and other criminal justice agencies and is
operational 24 hours a day, 365 days a year.



                                               13
      •   Questionnaire for Public Trust Positions, SF-85 P (Questionnaire);

      •   Supplemental Questionnaire for Selected Positions, SF-85 S
          (Supplemental Questionnaire); and

      •   Two FBI fingerprint cards.

A copy of each of these forms is attached as Exhibit 3.

       On the Questionnaire, the candidate was asked to provide basic
identifying information (e.g., name, address, height, weight), as well as
information about previous addresses, educational background, marital status,
relatives, employment activities, references, military history, foreign countries
visited, police record, use of illegal drugs, and financial history. On the
Supplemental Questionnaire, the candidate was asked to provide information
regarding use of illegal drugs and drug activity, use of alcohol, and mental
health. On the fingerprint cards, the candidate was asked to supply the prints
necessary to run the FBI fingerprint check.

      In addition to handling the candidate paperwork described above, the
ICITAP program analyst also would prepare the internal forms necessary to
secure the background check. These included a memorandum requesting
clearance (Request for Clearance), a copy of the Statement of Work, and in
some cases, a Waiver Form.

       The Request for Clearance is a standardized form that, according to the
SPS’s Assistant Director for Security, Procurement & Property Management,
Linda Cantilena, was prepared by the SPS for ICITAP’s use. Cantilena told the
OIG that the form was created approximately six or seven years ago, prior to
the issuance of Policy 60-3 in 2002, and was not updated to reflect the Policy’s
guidance regarding classification of risk until June 2004. A copy of the version
of the form that was in use at the time the Iraq program commenced is
attached as Exhibit 4.

      On the Request for Clearance, ICITAP provided basic identifying
information about the candidate and requested that the SPS “process” the
candidate “in accordance with agreed upon standards.” The form contained
signature blocks for both the ICITAP Deputy Director and a Program Manager.
In addition, it contained a series of statements to which ICITAP was to respond
true or false. These questions were:




                                       14
      •   This individual will not have access to National Security
          Information.

      •   This individual will not have access to Sensitive
          Information.

      •   This individual will not require unescorted access to the
          U.S. Embassy.

      •   This individual will not interact with senior U.S. Embassy
          officials in the course of routine work assignments.

If ICITAP indicated “true” in response to all four statements, the position would
be labeled low risk and the SPS would process the candidate accordingly.

      As discussed above, Policy 60-3 allows a hiring section to request a
waiver of the full background check. Under this policy, such requests
were supposed to be the exception rather than the rule and made in
writing. ICITAP program analysts sometimes completed and sent to the
SPS the Waiver Form. However, both ICITAP and SPS employees told the
OIG that whether or not a Waiver Form was included in a particular
security packet, the SPS assumed that ICITAP wanted to deploy
candidates overseas as soon as possible and therefore processed all
packets received from ICITAP as if a written waiver request had been
made.

       Once the ICITAP program analysts collected and completed all of
the necessary paperwork, they would create a “security packet” for each
candidate. This packet would then be delivered to the SPS, either
directly by the program analyst who had prepared it or through
interoffice mail, so that the SPS could conduct the necessary background
check. ICITAP generally did not maintain a copy of the security packets
it delivered to the SPS or a log of which packets were delivered.

       Policy 60-3 assigns certain responsibilities regarding subcontractor
background checks, including reviewing the paperwork submitted by
candidates for completeness, to Section Security Officers or their
designees. During the relevant period, ICITAP assigned Section Security
Officer duties to one employee on a collateral basis. There was, however,
frequent turnover in the position. Moreover, the position description for
the ICITAP Section Security Officer did not include among its duties any
responsibility for the subcontractor clearance process. Indeed, the
ICITAP employee who served as the Section Security Officer during the
relevant period told the OIG that he viewed the clearance process as


                                        15
primarily the responsibility of the program analysts. Nevertheless, as
discussed in more detail below, the SPS clearly treated the ICITAP
Section Security Officer as its primary contact regarding subcontractor
clearances, and he was therefore inevitably drawn into the process.

            3. Subcontractor Clearance Procedures in the SPS

      During the relevant period, one Security Specialist processed virtually all
security packets received by the SPS from ICITAP. The Security Specialist told
the OIG she would first review the Questionnaire and Supplemental
Questionnaire for completeness. If information was missing, she would notify
the ICITAP Section Security Officer. It would then be ICITAP’s responsibility to
see that the missing information was supplied, and processing would not
proceed until it had done so.

       If a packet was complete, the Security Specialist would determine the
level of background investigation required by referring to the Request for
Clearance. Specifically, she would turn to ICITAP’s responses to the true/false
statements on the form. She explained that ICITAP routinely marked all four
statements as true, and that she therefore processed virtually all ICITAP
subcontractor candidates at the low risk level. She said that until May 2004,
when Gary Llewellyn became the Chief of Security Programs Staff, neither she
nor, to her knowledge, anyone else at the SPS ever questioned the designation
of virtually all ICITAP subcontractor positions as low risk.

       The Security Specialist also told the OIG that whether or not a Waiver
Form was included in the security packet, she processed all ICITAP
subcontractor candidates as if a waiver had been requested. The practical
effect of this was that virtually all ICITAP subcontractors were cleared for hire
based solely on an NCIC check.

       The Security Specialist said that at the time the Iraq program
commenced, it was her general practice to complete promptly the full
background check on all ICITAP subcontractors who had been granted a
waiver. Under Policy 60-3, this entailed requesting that the FBI run a name
and fingerprint check on the candidate. The Security Specialist indicated that
this practice changed, however, in March 2004 as the Iraq program grew and
the number of clearance requests she was receiving increased. She said that at
that time she was instructed not to process clearance requests beyond the
waiver stage. In other words, she was to complete the NCIC check and grant
the waiver if the check was clear, but she was not to request the FBI name and
fingerprint check necessary to complete the full check. She said the decision
not to perform full background checks was made by her superiors at the SPS
and was an effort to free up more of her time to process waivers for ICITAP
subcontractor candidates. According to Gary Llewellyn, the SPS returned to
performing full background checks on all candidates in August 2004 and also


                                        16
has gone back and completed full checks on all subcontractors who were
previously cleared solely on the basis of a waiver.

      The Security Specialist told the OIG that if the NCIC check turned up no
derogatory information on a subcontractor candidate, she would notify ICITAP
that a waiver had been granted. She said that at the time the Iraq program
commenced, she notified ICITAP either verbally or by e-mail. Generally, she
sent e-mail notification to the ICITAP Section Security Officer, sometimes with
a copy to the program analysts from whom she had received the packet. The
Security Specialist said she did not keep a log of security packets delivered by
ICITAP or of the waivers or full clearances she granted.

            4. Application of ICITAP and SPS Background Check
               Procedures to the McCotter and Bartlett Teams

      The SPS provided the OIG with a copy of the security packet for each
member of the McCotter and Bartlett Teams except for Billings. These files
contained the security paperwork completed by the team members, the internal
forms generated by the ICITAP program analysts, as well as the paperwork
generated by the Security Specialist in connection with the background checks
she performed. The discussion below is based on the OIG’s review of these files
and our interviews of the Security Specialist and Iraq program analysts
concerning these documents.

                  a. The McCotter Team

          On May 8, 2003, the Security Specialist performed NCIC checks on all
four members of the McCotter Team. Because all four checks were clear, the
Security Specialist granted waivers on each of the men. There is no indication
in the file of how or if the waiver determination was communicated to ICITAP.
The Security Specialist could not locate an e-mail notification and did not
specifically recall notifying ICITAP orally.

      The files also indicate that on the same date, the Security Specialist
requested an FBI fingerprint check on each of the team members and that the
FBI performed the checks and responded to the Security Specialist on May 9.
The FBI checks revealed no disqualifying information.

      Finally, the files for all four team members contain a memorandum dated
May 23, 2003, from the Security Specialist to the FBI requesting a name check.
However, the files do not contain any response from the FBI to the SPS inquiry.
The Security Specialist told the OIG that it was not unusual for the FBI to take
many weeks to respond to a name check request, but she had no specific
explanation for why these files did not contain a response. Based on our
review, it does not appear that FBI name checks were performed on the team
members in response to the SPS requests.


                                       17
       In sum, the records show that the SPS granted all four team members a
waiver on the basis of a clear NCIC check prior to the dates on which they were
deployed to Iraq as ICITAP subcontractors (May 10 for McCotter, DuBois, and
Stewart, and June 25 for DeLand). However, because the men traveled to Fort
Bliss on May 2, it appears that they were placed on the SAIC payroll before the
SPS officially granted the waivers. This appears to be inconsistent with the
requirement in Policy 60-3 that all subcontractors receive appropriate
clearance prior to being retained by ICITAP. With regard to the full background
checks required by Policy 60-3 for low risk subcontractors, the records show
that the SPS requested both the required name and fingerprint checks from the
FBI, but that only the fingerprint checks appear to actually have been
performed by the FBI in response to the SPS requests.

            b. The Bartlett Team

      The SPS provided the OIG with security packets for all members of the
Bartlett Team except Billings. Neither the SPS nor ICITAP could locate a
security packet for Billings. Moreover, the Security Specialist told the OIG that
her records indicate that the SPS never conducted an NCIC check on Billings.
Accordingly, it appears that Billings was deployed to Iraq without any pre-
deployment background check. Because the SPS has no record of having
conducted an NCIC on Billings, we believe the most likely explanation for this
lapse was that the SPS never received a security packet for Billings from
ICITAP. As discussed in more detail below, ICITAP requested and the FBI
performed a name check on Billings after he had returned from Iraq, but it
does not appear that either an NCIC or fingerprint check were ever conducted
on Billings.

      With regard to the other three members of the Bartlett Team, the files
indicate that the Security Specialist performed an NCIC check on each
individual on September 2, 2003. The checks were clear for two of the men
and revealed a “hit” on one involving 30-year-old criminal charges. The
Security Specialist told the OIG that she consulted with her supervisors
regarding the criminal charges, and that they determined that the charges were
not disqualifying based on Office of Personnel Management guidance that
instructs agencies to consider the nature, extent, and seriousness of a charge,
as well as the individual’s age and maturity at the time it was committed.
Therefore, the SPS granted waivers to all three team members. As with the
McCotter Team, the SPS’s files contain no indication regarding how or if the
Security Specialist notified ICITAP that the waivers had been granted.

      In addition, there is no indication in the files of Bartlett, Ryan, or
Armstrong that the Security Specialist requested that the FBI run a fingerprint
check on them. Moreover, although the Ryan and Armstrong files contain
copies of memoranda from the Security Specialist to the FBI requesting name


                                       18
checks on the men, no similar memorandum was contained in the Bartlett file.
There is no indication in the files that the FBI replied to the Ryan and
Armstrong name check requests. As a result, based on our review it does not
appear that FBI fingerprint checks or name checks were performed on any of
the team members as a result of requests by the SPS.

      Finally, the files indicate that although employment vouchering was not
required for the team members because they were designated “low-risk,”
ICITAP staff members contacted previous employers of Bartlett, Ryan, and
Armstrong and confirmed their employment. They indicated they had
performed this vouchering on the Waiver Forms they provided to the SPS.

       Thus, the records concerning the Bartlett Team indicate that prior to
their deployment to Iraq, the SPS granted three members of the team – Bartlett,
Ryan, and Armstrong – a waiver in accordance with Policy 60-3, but did not
complete all the steps necessary for a full background check on the men.
Specifically, no fingerprint checks were requested on any of the men, and a
name check was requested but apparently not conducted on two of the three.
With regard to Billings, no pre-deployment background checks were done at
all.

      B. Post-Deployment Checks

      Prompted by Senator Schumer’s concerns, ICITAP conducted further
research into the backgrounds of the members of the McCotter and Bartlett
Teams in May and June 2004. Specifically, ICITAP, SAIC, and Office of
Administration personnel conducted name searches in three electronic
databases – Google, LexisNexis, and PACER. In addition, the DOJ Civil Rights
Division (CRD) searched its records for any indication that the men had been
the subject of a federal civil rights investigation. The FBI also ran a name
check on each of the men. With the exception of the FBI name check, which
was part of the standard background check required under Policy 60-3 to be
performed on all low-risk subcontractor candidates, all of these post-
deployment checks exceeded what was required at the time by Criminal
Division policy. Below we discuss these checks and their results.

               1. FBI Name Checks

       ICITAP requested that the FBI run name checks on all eight members of
the Bartlett and McCotter Teams. Although ICITAP personnel were not aware
of this at the time they requested the checks, the SPS had already requested
the checks be run on six of the men because FBI name checks are a standard
part of the background check for subcontractors designated as “low risk.”12

      12   As discussed above, the SPS did not request FBI name checks on Billings or Bartlett.



                                              19
There is no indication, however, that the FBI actually completed the checks
until they were requested by ICITAP for the second time. In any event, the
checks revealed that the FBI had no information in its files regarding any of the
eight men.

               2. CRD Checks

      ICITAP requested that the CRD check its records for any indication that
the men had been the subject of a federal civil rights investigation. CRD had
no information to report to ICITAP regarding Armstrong, Bartlett, Billings, or
DuBois.

       With regard to McCotter, the CRD informed ICITAP that in March 2003 it
had issued a findings letter listing deficiencies in one adult detention facility
run by MTC, the private company with which McCotter was employed at the
time he was retained by ICITAP.13 The CRD stated, however, that to its
knowledge McCotter was not involved in the operation of the facility and had no
direct responsibility for its management. The CRD’s information on DeLand
was limited to the fact that he had served as an outside expert for opposing
counsel in two cases prosecuted by the CRD. CRD did not indicate that it
viewed DeLand’s participation in these cases as reflecting negatively on his
commitment to civil rights.

      With regard to Stewart, the CRD informed ICITAP that in 1997 it had
sued the Arizona Department of Corrections for allegedly failing to prevent
sexual misconduct by correctional officers and staff toward female inmates.
According to the CRD, the investigation that led to the lawsuit had begun while
Stewart was employed by the Arizona Department of Corrections, but before he
became its Director. The CRD indicated that the case was settled after Stewart
became Director, that no pattern or practice of misconduct by the Arizona
Department of Corrections had been established, and that Stewart was active
in implementing the settlement agreement. With regard to Ryan, the CRD said
only that it had deposed him in connection with its suit against the Arizona
Department of Corrections. CRD did not indicate that any derogatory
information about Ryan was obtained as a result of this deposition.




       13 A findings letter notifies the jurisdiction of the results of a CRD investigation.
Findings letters, including the one concerning the MTC facility, are available online at:
http://www.usdoj.gov/crt/split/findsettle.htm#FindingsLetters.



                                                20
              3. Google Searches

      ICITAP, with help from SAIC, ran Google searches on all eight men. The
searches produced references to news articles reporting on Senator Schumer’s
allegations. Some of these articles suggested a possible link between the men
and the abuses at Abu Ghraib. The searches also produced articles that
referenced some of the controversies and lawsuits involving the men that are
discussed in Senator Schumer’s letter to the OIG.

              4. LexisNexis and PACER Searches

      ICITAP and Office of Administrative personnel conducted name searches
in three different LexisNexis databases: law enforcement records; lawsuit
records; and news articles. The law enforcement search produced primarily
generic information such as addresses, the names of associates and neighbors,
vehicles owned, and similar information. In addition, it produced some
information regarding small claims judgments.14 The news article checks
produced information similar to that retrieved by the Google searches.

      The lawsuit records check disclosed information regarding various
lawsuits that had been filed against some of the team members during their
tenures as prison administrators, including the suits discussed by Senator
Schumer. The information regarding these lawsuits was printed out in hard
copy and later reviewed by ICITAP managers, including Acting Director Jones,
who holds a law degree.

       In addition to the LexisNexis searches, ICITAP and SAIC also conducted
PACER searches. PACER is an electronic public access service that allows
users to obtain case and docket information for federal court cases.
Accordingly, the PACER searches produced information similar to that
retrieved by the LexisNexis case searches – information regarding civil suits in
which the team members had been named as parties. As with the LexisNexis
searches, the personnel conducting the searches printed out hard copies of
each case that listed one of the team members as a defendant. These results
were then reviewed by ICITAP management.

        Although the PACER and LexisNexis searches enabled ICITAP to locate
civil lawsuits in which the men had been named, because of the limited nature
of the information contained in the databases it was not always possible to
ascertain the exact nature of the suits or their outcome. Nevertheless, based
on the information gleaned from the searches and on additional inquiries made
both by ICITAP and the OIG, several facts are clear. First, the men were named

       14For example, the search relating to one team member revealed that a judgment for
$54 had been entered against him in 2002.



                                            21
as defendants in many of the cases because of the high-level positions they
held and not because of their personal conduct. Many of the suits were habeas
corpus actions filed by inmates challenging the validity of their convictions.
Prison administrators are often named in such suits simply because they have
physical custody of the inmate. Second, many of the cases had been dismissed
or otherwise resolved in favor of the defendants, while others had been settled
with no admission of liability. Third, out of the hundreds of cases reviewed,
only a small handful alleged there had been serious or systematic problems
regarding the treatment of inmates during the men’s tenures, and none of
these had resulted in a finding of liability against any of the men.

         3. Analysis of the Information Revealed as a Result of the Post-
            Deployment Checks

      As discussed above, the post-deployment checks produced two types of
information that may have raised questions regarding the men’s qualifications
to serve as corrections advisors in Iraq. First, they revealed that seven of the
eight men had been named as defendants in civil lawsuits stemming from their
tenures as high-level prison administrators. Second, they revealed that some
of these lawsuits questioned management decisions the men had made or the
conditions of confinement in the institutions which they had run or helped
run.

       The OIG asked ICITAP Acting Director Jones whether ICITAP would have
acted differently in its selection of the members of the McCotter and Bartlett
Teams had it been aware of this information at the time it selected them for the
Iraq assignment. Jones told the OIG that, in his view, none of this information
would have caused ICITAP to forego retaining the men. He pointed out that the
FBI and CRD checks revealed no derogatory information about any of the men.
He also said that he did not believe it would have been appropriate to disqualify
the men from ICITAP service simply based on the fact that they have been the
subject of lawsuits and related controversies. Rather, in his view, one must
consider the nature of the allegations made, the level of the individual’s
personal involvement, and how the matters were ultimately resolved. Jones
told the OIG that he believes that taking these considerations into account,
none of the information revealed by the post-deployment searches would have
been disqualifying.

      The OIG agrees that in judging the team members’ qualifications it is
important to consider the factors cited by Acting Director Jones. Accordingly,
we examine below the information revealed by the post-deployment searches
involving McCotter, Stewart, Armstrong, and DeLand.




                                       22
                    a. McCotter

       The most serious allegation concerning McCotter focused on his
culpability for an inmate death that occurred during his tenure as the Director
of the Utah Department of Corrections. The inmate in question died as the
result of a blood clot that formed after he was confined to a restraint chair for
many hours. The inmate’s family later sued the Utah Department of
Corrections for the death, naming McCotter as a defendant. The suit was
eventually settled by the State with no admission of liability. Some news
stories reported that McCotter’s resignation from the Utah Director’s post
resulted from pressure generated by the inmate’s death. In addition to the
Utah incident, McCotter’s qualifications also were questioned on the basis of
the CRD investigation of the MTC-run facility discussed above.

        The OIG spoke with the former Utah Assistant Attorney General who
defended the State in the lawsuit stemming from the inmate’s death. He told
the OIG that he had successfully defended the State in an earlier lawsuit
challenging the State’s use of restraint boards, and that the restraint chair in
which the deceased inmate had been placed was generally viewed as a less
onerous alternative to the board.15 As to the suit stemming from the inmate’s
death, he said it had been settled by McCotter’s successor with no admission of
liability. The former Utah Assistant Attorney General also told the OIG that the
inmate had been confined to the restraint chair at the direction of a prison
medical doctor and in conformity with the regulations in effect at the time. He
said that McCotter was not involved in the decision to use the chair and did not
know the inmate had been placed in the chair until he was notified of the
death.

       When interviewed by the OIG, McCotter said that he had no input into
the decision to place the inmate in the restraint chair and was unaware of it
until after the death occurred. He said that the decision was made in
accordance with prison policy by a medical doctor and that the prisoner had
been monitored in accordance with that policy. McCotter also denied that his
resignation from the Director’s post had any connection to the inmate’s death.
He said that his decision to resign was wholly voluntary and motivated by a
desire to take a position in the private sector after many years of government
service.

     In short, even if the restraint device was not used appropriately in the
inmate’s case – a judgment ICITAP would not be in a position to make given the
outcome of the litigation – there is no indication that McCotter was involved in

      15  We understand that both the BOP and the United States Marshals Service use
similar devices in some circumstances.



                                           23
the decision to use it in this case. Similarly, as discussed above, McCotter was
not involved in the management of the MTC-run facility cited by the CRD.

                        b. Stewart

      The focus of the criticism regarding ICITAP’s selection of Stewart was on
the CRD lawsuit discussed above and on several other lawsuits in which
inmates had alleged improper conduct by the Arizona Department of
Corrections and named Stewart as a defendant. Two lawsuits alleged that
inmates had been made to stand outside for long periods of time without
proper sanitation, drinking water, or protection from the elements. Another
lawsuit alleged that the Arizona Department of Corrections had failed to use
protective custody to shield certain at-risk inmates from harm.

       As noted above, the CRD lawsuit was filed based on events that occurred
prior to Stewart’s term as head of the Arizona Department of Corrections.
Moreover, the case was settled during Stewart’s tenure, and the CRD stated
that there was no evidence of a pattern or practice of misconduct by the
Arizona Department of Corrections.

       With regard to the lawsuits alleging inhumane conditions, the incidents
that formed the basis for one of the suits also occurred before Stewart became
Director and, for the other, a matter of days after Stewart became Director.
Moreover, the lawsuits were ultimately tried before a federal district court judge
and decided in favor of the defendants.16

      Finally, the lawsuit concerning protective custody also originated with a
policy imposed by Stewart’s predecessor and was ultimately settled during
Stewart’s tenure as Director through the collaborative efforts of the Arizona
Department of Corrections and the plaintiffs’ counsel. According to a law
review article written by two of the plaintiffs’ counsel, an Arizona Assistant
Attorney General who represented the State, the court-appointed monitor in
the case, and a Department of Corrections administrator, as result of reforms
undertaken during Stewart’s tenure, Arizona now has a protective custody
system “that is among the most enlightened in the nation.”17




       16   Johnson v. Lewis, et al., Civ. No. 96-463 (Feb. 11, 2003).

       17 Hill, Hammond, Skolnik, Martin, & Clement, Effective Post-PLRA Settlement Models:
A Case Study of Arizona’s Protective Segregation Lawsuit, 23 Pace Law Review 749 (2004).



                                                 24
                      c. Armstrong

      The information regarding Armstrong focused on two different
controversies arising from his tenure as Director of the Connecticut
Department of Corrections. First, several female employees alleged that sexual
harassment was pervasive at the Connecticut Department of Corrections.
Second, the Connecticut Department of Corrections transferred some
Connecticut inmates to a Virginia state prison, where two of the inmates later
died. There were allegations that the transferred inmates were mistreated, and
the inmates’ deaths led to two lawsuits against the Connecticut Department of
Corrections alleging liability based on the transfers.

      The Connecticut Commission on Human Rights and Opportunity
(Commission) investigated the allegations of pervasive sexual harassment of
female employees at the Department of Corrections, and in July 2002 held a
public fact-finding hearing at which Armstrong testified. On March 6, 2003,
the Commission released a report containing its findings.18 The Commission
found that sexual harassment of female employees was a problem at the
Connecticut Department of Corrections and made recommendations designed
to improve the Department’s complaint process, but it made no specific
findings against Armstrong or any other individual.

      In addition to the Commission investigation, two lawsuits currently are
pending in federal court that allege that sexual harassment at the Connecticut
Department of Corrections was widespread and that Armstrong and other
members of management failed to take appropriate steps to prevent it.
Armstrong is named as a defendant in the suits along with dozens of other
Department managers. The allegations against Armstrong pertain primarily to
his management of the Department of Corrections’ system for collecting and
investigating sexual harassment complaints and do not assert that Armstrong
himself sexually harassed any employee.19


       18  Fact Finding Report into Allegations of Sexual Harassment within the Department of
Correction (March 2003), available at www.state.ct.us/chro/metapages/whatsnew.htm.

        19 The complaint in one of the lawsuits contains several paragraphs that restate

charges made in a complaint filed with the Commission in 2000 by a former Deputy
Commissioner who was fired by Armstrong. The pending lawsuit describes the Deputy
Commissioner’s complaint as having charged Armstrong himself with making inappropriate
comments of a sexual nature at senior-level staff meetings. The OIG reviewed a copy of the
Deputy Commissioner’s 2000 complaint and determined that the current complaint
mischaracterizes its allegations regarding Armstrong. Although the Deputy Commissioner’s
complaint alleges that inappropriate comments were made at some meetings, it does not
attribute those comments to Armstrong. According to the Connecticut Assistant Attorney
General who handled the Deputy Commissioner’s complaint and is defending the current suits,
the Deputy Commissioner’s complaint was settled with no admission of liability, and she is not
a party to the current suit.



                                              25
       The Commission also investigated and issued a report concerning the
transfer of inmates to Virginia.20 As discussed in the Commission report, the
majority of the transferred inmates were minorities from urban areas, and the
Virginia prison to which they were sent was located in a rural, predominantly
white community. The Commission reported a number of incidents of racial
harassment against some transferred inmates and recommended that the State
of Connecticut not renew the contract to house inmates at the Virginia prison.
The lawsuits stemming from the deaths of two of the transferred prisoners were
settled with no findings against Armstrong or the State of Connecticut.

                      d. DeLand

      The charges surrounding DeLand were somewhat vague, and focused
primarily on statements made to the media by the Mayor of Salt Lake City, who
had formerly represented inmates in lawsuits filed against the Utah
Department of Corrections. After the controversy regarding the ICITAP
contractors arose in June 2004, the Mayor alleged to the media that DeLand
had run the Utah prisons in a “sadistic” manner. DeLand denied this
allegation and told the OIG that he and the Mayor had often clashed during the
time that DeLand served as head of the Utah Department of Corrections and
the Mayor represented inmate plaintiffs. He also pointed out that although he
had been named in inmate lawsuits in his capacity as Director of the Utah
prison system, there are no court judgments against him for violating the
rights of any inmate.

       In sum, had ICITAP checked public databases for information about the
members of the McCotter and Bartlett Teams prior to hiring the men it would
have found that some of them had been named in lawsuits related to their
work as high-level state corrections officials. However, many of the lawsuits
were standard complaints filed by inmates against correctional officials, and
none of the lawsuits we identified resulted in findings of misconduct against
the individual corrections officials. When we asked the ICITAP Acting Director
whether ICITAP would have acted differently in its selection of these
subcontractors had it been aware at the time of this information, he said that
none of the information would have caused ICITAP to forego retaining the men.
In light of the facts we have described above, we cannot conclude that such a
postion was unreasonable.




       20 Report on the Connecticut Department of Correction Inmate Transfer to Virginia
(February 2001).



                                              26
VII. THE MCCOTTER AND BARTLETT TEAMS ROLES AT ABU GHRAIB

       As noted above, several news articles have suggested that the members
of the McCotter and Bartlett Teams were somehow involved in or shared
responsibility for the abuse of Iraqi prisoners at Abu Ghraib. Accordingly, the
OIG attempted to assess whether evidence supported such a view.

       With regard to the McCotter Team, all four members had left Iraq before
inmates were placed in the Abu Ghraib cell blocks where the abuse took place.
Moreover, the services they performed in Iraq were limited to conducting and
writing an assessment of the state of Iraqi prisons, overseeing the renovation of
a limited number of prison facilities, and recruiting, training, and advising a
small number of Iraqis who would eventually serve as staff in the newly re-
opened prisons. The men had no role in or responsibility for training or
supervising the military personnel who worked at Abu Ghraib and who
perpetrated abuse.

       Similarly, while in Iraq the members of the Bartlett Team continued to
oversee the renovation of Iraqi prisons and to train and advise the Iraqi staff
and management of those prisons. They too did not supervise or train the
military personnel stationed at Abu Ghraib. Moreover, although the members
of the Bartlett Team were in Iraq and visited Abu Ghraib during the period the
abuse occurred, their visits were sporadic and took place during daylight
hours, and their access to the portion of the prison in which the abuse took
place was greatly restricted.

      A. The McCotter Team

       As discussed above, McCotter, DuBois, and Stewart arrived in Iraq in
May 2003 to conduct an assessment of the Iraqi prison system. All three men
told the OIG that soon after their arrival they met with officials from the
Coalition Provisional Authority, under whose authority they operated while in
Iraq. They said that these officials told them that the majority of Iraqi prisons
had been heavily damaged and looted, and that therefore there was a severe
shortage of space in which to place the growing number of civilians being
arrested for looting and other crimes. Accordingly, in addition to conducting
the planned assessment, the men were asked to identify facilities that were
suitable for immediate renovation and to begin those renovations with the goal
of re-opening the facilities as soon as possible.

      The men told the OIG that they thereafter divided into teams, with
McCotter and Stewart taking responsibility for the immediate Baghdad area,
and DuBois and a Canadian advisor for other parts of the country. They said
that they traveled in their teams to former Iraqi prison sites in their respective
areas of jurisdiction with the dual purpose of preparing the assessment report


                                        27
and identifying possible sites for renovation. On June 15, 2003, they produced
a report entitled Prisons and Detention Centers in Iraq: An Assessment and
Recommendations for Prisons in a Free Society (Report). In the Report, they
described 21 facilities they had visited and divided those facilities into 4
categories based on how soon each could be renovated. Among the facilities
identified as suitable for immediate renovation was Abu Ghraib.

      Because Abu Ghraib was located near Baghdad, it fell within McCotter’s
and Stewart’s jurisdiction. Both men told the OIG that they visited the facility
soon after their arrival in Iraq and described it as having been heavily
damaged. They said that when they first visited the site, no prisoners were
being held there, but that within a few weeks of their arrival the military had
erected tents on the site and was housing some prisoners in these tents. They
both said that they did not tour the tent facility or view the prisoners inside.
DuBois told the OIG that he too visited the site early on in his stay, and
confirmed McCotter’s and Stewart’s description of it.

      In the Report, McCotter and Stewart described Abu Ghraib as having
consisted of 4 separate and distinct compounds, each of which had housed
approximately 7,000 to 8,000 prisoners during Saddam Hussein’s regime.
They wrote that two of the compounds had been almost totally destroyed, one
was repairable with “extensive work,” and one was “structurally sound.” They
further stated that two cellblocks in the structurally sound compound were
suitable for immediate renovation, and noted that as of the date of the Report,
$172,000 had been approved for the project and renovations had begun.

       McCotter told the OIG that he personally oversaw the renovation of the
two Abu Ghraib cell blocks. He said that he prepared the funding request,
shepherded it through the Coalition Provisional Authority, and hired the
engineers and construction workers who performed the construction work.
DeLand told the OIG that when he arrived in Iraq in June, the renovation
efforts already had begun. He said that he focused on the task of locating and
training Iraqis who could staff and manage the facility when it opened.

       According to McCotter and DeLand, the renovation of the two cell blocks
at Abu Ghraib was completed in late August, and they arranged and held a
dedication ceremony for the facility shortly before they left Iraq. McCotter
provided the OIG with photographs of Abu Ghraib, including “before” and
“after” shots of the renovated cell blocks. Two of these photographs are
attached as Exhibit 5. McCotter and DeLand said that when they left Iraq in
early September, no prisoners had yet been placed in the newly renovated cell
blocks.

      Richard Mayer told the OIG that he traveled to Iraq in July 2003 and
that he visited Abu Ghraib during this trip. He confirmed that at that time
renovations were ongoing and that there were no prisoners in the cell blocks.


                                       28
      B. The Bartlett Team

        Bartlett, Armstrong, and Ryan told the OIG that when they first arrived
in Iraq in September 2003, prisoners were just beginning to be transferred into
the newly renovated cell blocks at Abu Ghraib. They recalled first visiting the
facility toward the end of the month and finding some prisoners housed there
at that time. They said that during this visit, they discovered that the control
of the cell blocks, and thus of the prisoners being housed there, had been
divided between the military and civilian authorities. As they described it, one
cell block and part of the second was being used to house civilian prisoners
and the newly trained Iraqi guards and managers were stationed in these
areas. However, according to the men, the military had taken exclusive control
of the remainder of the second cell block, cordoning it off from the rest of the
facility with temporary walls and plywood over the windows. All three men
reported that civilian access to the military’s section of the cell block was
severely restricted.

      Bartlett said that in December 2003, the military increased the area of
the prison under its exclusive control to encompass the remainder of the
second cell block. Once again, physical barriers were erected and civilians
were not permitted unescorted access. According to Bartlett, the military did
not vacate the Abu Ghraib cells until June 2004.

       Bartlett, Armstrong, and Ryan told the OIG that they acted as advisors to
the Iraqi staff stationed at Abu Ghraib, and that in this role they visited the
civilian-controlled area of the prison several times between September and
December 2003. The men said that travel in Iraq was extremely difficult and
dangerous and that they therefore traveled in pairs, with military escort, and
during daylight hours. They also said that it was not until January 2004,
when additional ICITAP correctional advisors arrived in Iraq, that they were
able to station advisors at Abu Ghraib and other prison facilities on a more
regular basis.

       Bartlett, Armstrong, and Ryan told the OIG that during their visits to
Abu Ghraib, they generally steered clear of the portion of the prison that was
under exclusive military control. They said that because they were not
responsible for either the prisoners housed there or the military staff guarding
them, they were not involved with that section of the facility. All three men
denied witnessing any acts of abuse at Abu Ghraib and said they were unaware
of the abuse until it became public. They also said that had they witnessed
any such abuse, they immediately would have reported it to the Coalition
Provisional Authority and ICITAP managers. They pointed out that throughout
this period they were sending reports to ICITAP managers on a regular basis
regarding the Iraq corrections program.




                                      29
      Billings told the OIG that he also visited Abu Ghraib several times after
he arrived in Iraq in October 2003. Like the others, he described a facility that
had been divided into military and civilian sectors. Billings said that he had
been permitted access into the military side of the prison on several occasions,
but always in the presence of military personnel. He denied witnessing any
mistreatment of prisoners or knowing about the abuse until it became public.
He also said he would have reported the abuse had he been aware of it.

       All four members of the Bartlett Team told the OIG that they had no role
in or responsibility for training or supervising the military personnel who
staffed the section of the prison under military control. Rather, their role was
limited to training and advising the Iraqi managers and staff stationed there.

      Mayer told the OIG that he visited Iraq in September 2003 and that he
met with Bartlett, Ryan, and Armstrong at that time. He said that none of the
three reported witnessing or being aware of any allegations of prisoner abuse at
Abu Ghraib. He also said that he believed the men would have told him about
abuse allegations had they been aware of them.

VIII. OIG CONCLUSIONS

      As detailed above, ICITAP recruited the members of the McCotter and
Bartlett Teams by relying on recommendations provided by the BOP and the
ACA, and on recommendations received in turn from individuals who had been
recommended by those organizations. ICITAP managers then selected from
among this group eight individuals with extensive, high-level corrections
experience who were willing and available to go to Iraq on relatively short
notice. Before instructing SAIC to hire these individuals, ICITAP reviewed the
candidates’ resumes, spoke with them by phone, and eventually met with all of
them in person during orientation sessions held at ICITAP headquarters.

       In addition, in accordance with Criminal Division policy in effect at the
time, ICITAP submitted the names of seven of the eight team members to the
SPS for the required pre-deployment background check. As it routinely did
with all of its subcontractor positions, ICITAP labeled the positions the men
would be filling as “low risk” because they would not have access to sensitive
information or to a government embassy while overseas. Accordingly, the SPS
conducted an NCIC search on the seven men and granted each a waiver based
on the results of that check. As discussed above, the only member of the two
teams who did not undergo any of the required pre-deployment checks was
Billings. The most likely explanation for this oversight was that ICITAP failed
to submit Billings’ paperwork to the SPS. However, because a post-deployment
FBI name check on Billings revealed no disqualifying information, he too likely
would have received a pre-deployment waiver.




                                       30
       These pre-deployment background checks did not, and were not
designed to, reveal information such as the allegations contained in the civil
lawsuits discussed above. Accordingly, ICITAP managers were not aware of
this information prior to the men’s deployment to Iraq and therefore did not
take it into account when considering hiring the men for the Iraq program.

       However, it also is unlikely that ICITAP managers would have learned of
the civil lawsuits even if ICITAP had assigned a higher risk level to the men’s
positions. Because of time constraints, all subcontractors for the Iraq program
likely would have been cleared on the basis of a waiver. And, under the
Criminal Division policy in effect at the time, a waiver could be granted even for
high-risk positions upon completion of an FBI fingerprint check, employment
vouchering, a favorable review of security paperwork, and a credit check, none
of which was likely to reveal the civil lawsuits.

       In May and June 2004, after Senator Schumer raised concerns about
certain of these individuals, ICITAP conducted a series of post-deployment
checks on all eight members of the McCotter and Bartlett Teams. Although
these searches revealed that many of the men had been the subject of civil
lawsuits resulting from their high-level and long-time service as prison
administrators, they did not produce information that ICITAP believes was
sufficient to conclude that any of the men were not qualified to serve as
subcontractors in Iraq.

       The OIG’s review uncovered no connection between any of the men and
the abuses at Abu Ghraib. Four of the men were not present in the country
when the abuse took place. And, although the other four visited Abu Ghraib
periodically during the period the abuse occurred, their visits were sporadic,
occurred during daylight hours, and were confined primarily to the part of the
prison under civilian, rather than military, control. None of the men had any
role in or responsibility for training or supervising the military personnel who
allegedly perpetrated the abuse.

       Finally, our review found broader weaknesses in the way ICITAP
conducted background checks on its subcontractors. For example,
during the course of our review, the OIG learned that ICITAP’s failure to
subject Billings to the required pre-deployment clearance was not an
isolated incident. An internal ICITAP review, undertaken during the
course of the OIG’s review, revealed that during the period September
2003 through June 2004, ICITAP hired and placed under contract with
SAIC for the Iraq program dozens of subcontractors who did not have the
required clearances. Twenty-two of these subcontractors were actually
deployed to Iraq without clearances. When the OIG learned of this
problem, we expanded our review to include a broader examination of the
ICITAP subcontractor clearance process. In the following section, we
discuss our findings regarding weaknesses in that process.


                                       31
      A. ICITAP Failed to Adequately Train Its Employees Regarding the
         Subcontractor Clearance Process

       As discussed above, a number of ICITAP employees played prominent
roles in the subcontractor clearance process. ICITAP program analysts had
primary responsibility for ensuring that the security paperwork was completed
and provided to the SPS. In addition, they also made the initial determination
regarding subcontractor risk levels. ICITAP managers were charged with
overseeing the analysts’ work, and all Requests for Clearances required
managers’ signatures. Although ICITAP did not formally assign responsibility
for the subcontractor clearance process to its Section Security Officer, both
Policy 60-3 and SPS practice gave the Section Security Officer a role in the
process.

       Despite the vital role played by ICITAP employees in the clearance
process, neither ICITAP nor the SPS had a formal program in place to train
ICITAP employees regarding their roles and responsibilities. Instead, new
program analysts were trained on the job by co-workers who themselves had
never received formal training. For example, the program analyst hired in May
2003 for the Iraq program told the OIG that the only instruction he received
regarding the clearance process came in the form of on-the-job training from
his fellow analysts. Several other ICITAP program analysts we spoke to
confirmed that they too had received no formal training regarding
subcontractor background checks.

       Similarly, ICITAP employees who were assigned the collateral duty of
Section Security Officer also were expected to learn on the job. The individual
who served as ICITAP Section Security Officer during much of the Iraq program
told the OIG that when he began the position in October 2003, he was handed
a briefing packet that made no mention of subcontractor clearances and had a
short conversation with his predecessor regarding her understanding of the
Section Security Officer duties.

      The lack of training also meant that ICITAP employees generally were
unfamiliar with Policy 60-3 and unaware of its guidance regarding how to
assess the risk associated with subcontractor positions. Both Iraq program
analysts and the ICITAP Section Security Officer told the OIG that they were
unaware of Policy 60-3 until June 2004, when the SPS held a briefing on the
policy for all ICITAP staff. Consequently, ICITAP inappropriately relied solely
on the Request for Clearance to make risk determinations. But because the
form only asked about the access the subcontractor would have to national
security information and to embassies, it did not result in an adequate
consideration of the risk associated with ICITAP subcontractor positions. For
example, ICITAP did not consider the level of authority and responsibility the
corrections subcontractors would be exercising in Iraq. Had it done so, we


                                       32
believe that ICITAP would have concluded that the risk level associated with
many subcontractor positions – such as those filled by the McCotter and
Bartlett Teams – was more than minimal. We believe that the subcontractors
should not have been universally labeled “low risk,” but instead should have
received a risk assessment commensurate with their duties.

      We also fault the SPS for not updating the Request for Clearance when
Policy 60-3 was issued in 2002. Its failure to do so left users of the form with
the mistaken impression that the factors listed in it were the only ones relevant
to proper risk determination. We also believe that given their familiarity with
Policy 60-3, SPS managers should have questioned ICITAP’s universal low-risk
designation for all its subcontractors much earlier.

       Finally, we also believe that the practice of allowing universal waivers for
all ICITAP subcontractors without written requests or justification from ICITAP
was inconsistent with Policy 60-3. We understand that the nature of ICITAP’s
operations may require that waivers frequently be granted in order to ensure
that overseas programs are staffed on a timely basis. Nevertheless, we believe
that in such circumstances, ICITAP should be required to submit written
justification in accordance with the requirements of 60-3.

      B. ICITAP Lacked Written Standard Operating Procedures For the
         Clearance Process

       Compounding the lack of training was an absence of standard written
procedures regarding the background check process. Without written
guidance, each ICITAP program analyst was left to develop his or her own
processes and procedures for handling security packets; for delivering the
packets to the SPS; and for communicating with the SPS about the status of
the packets, with no standardization among the various ICITAP programs.
Thus, some ICITAP analysts carefully handled and tracked the security packets
of the subcontractor candidates for their programs, while others were less
diligent about the process.

       The lack of written procedures also meant there was nothing in writing
instructing the analysts not to deploy subcontractors unless and until they had
received affirmative clearance from the SPS. In the absence of such a written
instruction, some analysts incorrectly concluded that once they delivered a
security packet to the SPS, their responsibility for the clearance process was
complete. These analysts operated under the view that no news was good news
and, if they did not hear from the SPS regarding a particular subcontractor,
they assumed clearance had been granted and therefore allowed the individual
to be deployed. Because, as discussed below, the recordkeeping and
communication practices between ICITAP and the SPS were deficient, this
assumption inevitably led to the deployment of subcontractors whom the SPS
had not cleared.


                                        33
       Indeed, in January 2004, the COTR for the SAIC contract recognized that
ICITAP was apparently allowing subcontractors to deploy without the
appropriate clearances and sent a series of e-mails to over 30 ICITAP program
analysts and managers reminding them of ICITAP’s responsibility to ensure
that all subcontractors were cleared by the SPS prior to deployment. In one of
these e-mails, the COTR explicitly stated that “the [subcontractors] must be
cleared by our security BEFORE they begin their travel/work – just turning the
paperwork in is not sufficient. This means you need affirmative confirmation
from security of the individual’s clearance before sending them out and before
they engage in any work activity for us.” The COTR’s message was reiterated in
a follow-up e-mail from Steven Parent, the Criminal Division’s Executive
Officer, who wrote “I cannot overstate how important it is to have all security
clearances in place before subcontractors undertake any work for us. I am
asking all involved to ensure strict adherence to this requirement.”

      Unfortunately, despite these e-mails, subcontractors without proper
clearances once again were deployed to Iraq in the spring of 2004.
Consequently, on May 28, 2004, the COTR again e-mailed ICITAP analysts and
managers, this time imposing a requirement he hoped would prevent further
improper deployments. He wrote: “To install a single check point for ensuring
subcontractors are fully cleared before beginning work, COTR approval now
requires [Statements of Work]/Delivery Orders be submitted with physical
documentation from security indicating the individual designated in the
[Statement of Work] has been cleared at the sensitivity level required for tasks
associated with that [Statement of Work]. This documentation must be an
attachment to each [Delivery Order] package when submitted to the COTR in
order for it to be a complete package and can not be processed for SAIC action
without [it].”

      The OIG asked the COTR about his May 2004 e-mail and the
requirement it imposed that written proof of clearance accompany each
Statement of Work. He said that he believed the procedure was working to
prevent further improper deployments but also indicated that he viewed it as
an interim measure that should be followed by the adoption of a more formal
procedure. As of the date of this report, ICITAP has yet to incorporate this
requirement into any formal procedure.


      C. Both ICITAP and the SPS Failed to Maintain Adequate Records
         Regarding Subcontractor Clearances

      Because Policy 60-3 divides responsibility for subcontractor background
checks between the SPS and ICITAP, a certain amount of communication
between the two entities is required. ICITAP must deliver security packets to
the SPS for each candidate; the SPS must then perform the required check and


                                       34
notify ICITAP of the results. The OIG’s review revealed that recordkeeping
regarding these transfers and communications in both ICITAP and the SPS
were deficient.

      ICITAP program analysts and the Security Specialist told the OIG that
large numbers of security packets often were delivered to the SPS at one time.
The Security Specialist said that at times she would return to her office to find
stacks of security packets sitting on her desk. In one e-mail, she jokingly told
a co-worker that she thought one ICITAP analyst had “been crawling through
the overhead pipes and dropping [files] on [her] desk when [she was] not
looking.” On more than one occasion we saw e-mail traffic between ICITAP
program analysts and the Security Specialist indicating that the analysts
believed that packets had been delivered to the SPS (and that therefore
clearances were being processed) when the Security Specialist had no
knowledge or record of having received the packets.

      Moreover, ICITAP program analysts often would deliver to the SPS
security packets just before the subcontractors to whom the packets pertained
were scheduled to deploy overseas and would request that the Security
Specialist conduct the necessary checks very quickly. For example, on
January 7, 2004, an ICITAP program analyst notified the Security Specialist via
e-mail that he was about to deliver to her 19 security packets for subcontractor
candidates ICITAP intended to deploy in less than a week. Similarly, in March
2004, the Security Specialist sent an e-mail to her supervisor stating that
ICITAP analysts had delivered over 40 packets for a deployment date that was
to occur in less than a week, and expected her to be able to process the
packets in no more than 2 days. The Security Specialist told her supervisor
that she believed it was “imperative that ICITAP be informed of the proper
procedures and expected turnaround time” for such a large number of packets.
Such requests not only ensured that there would rarely if ever be time for full
background checks to be completed before candidates were deployed overseas,
but also placed pressure on the Security Specialist to work quickly and
increased the likelihood that mistakes and miscommunications would occur.

      Despite the constant exchange of information between the two offices
and the obvious need to keep track of the status of individual files, neither
ICITAP nor the SPS maintained logs tracking packet delivery or clearance
status. Accordingly, there was no reliable way to track the transfer of security
packets between the two offices or to check the status of clearance requests.

       Further compounding the problem was the lack of a concrete procedure
in the SPS for notifying ICITAP when a particular candidate had been cleared.
As discussed above, the Security Specialist said at the time the Iraq program
commenced, she notified the ICITAP Section Security Officer of clearances
either verbally and by e-mail. But even when she began to regularly send



                                       35
e-mail notifications in May 2004, there did not appear to be a consistent policy
regarding the personnel to whom the e-mail notification was sent. Sometimes
notification was sent only to the Section Security Officer, who in turn would
have to notify the responsible program analyst. Other times, the Security
Specialist would include the responsible program analyst on her
communication to ICITAP. Some ICITAP program analysts attempted to make
up for the uncertainty regarding when and whether they would be notified by
the SPS by repeatedly e-mailing or otherwise contacting the Security Specialist
about the status of particular candidates. The need to respond to the regular
stream of such inquiries often diverted the Security Specialist from the task of
conducting background checks and further slowed the process.

       D. Steps Taken by ICITAP and the SPS to Improve the
          Subcontractor Clearance Process

       As noted above, during the course of the OIG’s review, ICITAP learned
that dozens of subcontractors without the proper clearances had been hired for
the Iraq program. Following this discovery, ICITAP and SPS managers focused
their full attention on the subcontractor clearance process and began to
implement and plan procedures intended to address the weaknesses discussed
above. In addition, to improve the recruitment and oversight process in the
corrections area specifically, ICITAP has retained the services of three former
BOP officials – a former general counsel and a former Assistant Director of the
Correctional Programs Division, both of whom were hired in the fall of 2004,
and a former warden, who has been working at ICITAP since February 2004.
These individuals are currently working at ICITAP headquarters and were hired
to provide ICITAP with the corrections expertise it lacked at the inception of the
Iraq program.

      Below we discuss ICITAP’s and the SPS’s actions and plans. We then
provide our own recommendations for further improvements.

            1. Focus on Policy 60-3

      In June 2004, the SPS re-drafted the Request for Clearance to reflect
Policy 60-3’s full guidance regarding evaluation of risk, including a recitation of
the applicable considerations for distinguishing between low-, moderate-, and
high-risk positions. A copy of the revised form is attached as Exhibit 6. In
addition, on June 15, 2004, the SPS held a briefing session at ICITAP on Policy
60-3 and the associated procedures for obtaining subcontractor clearances.
More than 30 ICITAP managers and staff attended this session.

       As a result of the focus on Policy 60-3 and the ensuing discussions
between ICITAP and SPS managers, ICITAP is now considering the full panoply
of criteria contained in Policy 60-3 when making risk determinations for
subcontractor positions. Consequently, corrections positions generally are


                                        36
being designated as “moderate risk,” while police positions receive either a
moderate- or low-risk designation, depending upon the responsibilities
involved.21

              2. New Procedures within ICITAP

       ICITAP has converted the Section Security Officer position into a full-time
job with formal responsibility for the subcontractor clearance process and has
hired an individual for the position who has a background in both military and
civilian security operations. He began work on February 7, 2005.

       ICITAP recently has taken steps to ensure better tracking and record-
keeping with regard to the status of clearance requests. All ICITAP programs
are now using some type of computerized database to track clearance requests
sent to the SPS and to record the SPS’s response. Most ICITAP programs are
entering data into a new tracking database that was developed specifically for
this function and that is described in more detail below. The Iraq program had
been keeping its data in a separate database, but now that a full-time Section
Security Officer has been hired, ICITAP plans to consolidate all programs into
one tracking system, which the Section Security Officer will be responsible for
maintaining.

      At ICITAP’s request, SAIC modified the questionnaire it requires all
subcontractor candidates to complete to include an inquiry regarding civil
lawsuits. Candidates are now asked “Have you ever had a civil suit brought
against you or been party to any civil rights litigation?” and, if they respond
affirmatively, to provide information regarding the circumstances, dates, and
results of the litigation.

      ICITAP personnel also are conducting Google searches on all
subcontractor candidates. Any “hits” are printed out and reviewed by ICITAP
managers for a determination as to whether the information should be
considered disqualifying. It is anticipated that responsibility for conducting
these Google searches will be shifted to the contractor once a new contract is in
place. ICITAP also requests that the CRD check its records for any pertinent
information regarding corrections candidates.

       ICITAP also has drafted a set of Standard Operating Procedures for the
subcontractor clearance process. The new Standard Operating Procedures
contain an explicit statement that no subcontractor may be deployed without
affirmative clearance from the SPS. The Standard Operating Procedures also
clearly delineate the role of ICITAP staff in ensuring that appropriate clearances

       21Generally, police classroom trainers who will have no managerial, fiscal, or field
mentoring responsibilities are receiving low-risk designations.



                                              37
are obtained. We summarize the new Standard Operating Procedures in the
paragraphs below.

       According to the Standard Operating Procedures, all security paperwork
completed by a subcontractor candidate (i.e., the Questionnaire, Supplemental
Questionnaire, and fingerprint cards) will be sent directly to the ICITAP Section
Security Officer. The Section Security Officer will verify that the security
packet is complete, assign it a tracking number, and enter it into the
computerized tracking system. If the paperwork is complete, the Section
Security Officer will e-mail the program analyst responsible for coordinating the
subcontractor’s deployment. If it is not complete, the Section Security Officer
will notify the contractor by memorandum that the packet will not be processed
until the missing information has been supplied.

       Once the program analyst has been notified by the Section Security
Officer that the candidate’s paperwork is complete, the program analyst will
prepare a Request for Clearance and a draft Statement of Work, and provide
both documents to the Section Security Officer. The Section Security Officer
will log the receipt of the documents into the tracking system, and route them,
with the completed security paperwork, to the appropriate Deputy Assistant
Director or Assistant Director for approval. That individual will review the
security packet, sign the Request for Clearance, and return the packet to the
Section Security Officer.

       After confirming that the packet is complete, the Section Security Officer
will update the tracking system, prepare a transmittal memo, and deliver the
packet to the SPS. SPS personnel will sign the transmittal memo, maintain a
copy, and return the original to the Section Security Officer.

      If the necessary background checks are satisfactory, the SPS will send an
e-mail to the ICITAP Section Security Officer stating that the subcontractor has
been cleared for deployment. The Section Security Officer then will forward a
copy of that e-mail to the appropriate program analyst and Deputy Assistant
Director or Assistant Director, log the date of the e-mail into the tracking
system, and retain a printed copy. The analyst then will prepare for the
subcontractor’s deployment.

      If, however, the SPS discovers information that prevents the granting of a
clearance, it will notify the Section Security Officer of the issue and inform the
Section Security Officer whether the issue can be resolved and, if so, what
information is necessary to resolve it. If the SPS determines that an issue
cannot be resolved with additional information, clearance will not be granted
and the process will end there. In either case, the Section Security Officer will
log the information received from the SPS into the tracking system and notify
the appropriate Assistant Director of the problem.



                                       38
       For potentially resolvable issues, the Section Security Officer will attempt
to obtain the required information from the candidate and will share the
information received with the relevant Assistant Director. If the Assistant
Director believes the additional information adequately resolves the issue and
wishes to proceed with the clearance and hiring process, the Section Security
Officer will prepare a letter of support for the Assistant Director’s signature,
and transmit it to the SPS for review. The SPS then makes a determination to
either grant or deny clearance, and notifies the Section Security Officer, who in
turn notifies the Assistant Director. If clearance is denied, ICITAP will look for
a new candidate for the position.

              3. New Procedures in the SPS

       The SPS has also instituted new procedures pursuant to which it now
records in a written log all security packets delivered by ICITAP. In addition, in
October 2004, the SPS’s staff was expanded to include two new Personal
Security Assistants who are employed on a contract basis, paid for with ICITAP
funds, and dedicated to working on ICITAP clearance requests. Along with
performing the background checks required by Policy 60-3, the Personal
Security Assistants also are running searches on all subcontractor candidates
in the LexisNexis case and news databases, as well as conducting PACER
searches on one in every 50 candidates.22 In addition, on a test basis, the SPS
is conducting searches using a new LexisNexis product called Accurint.
According to Accurint’s website, this database provides users with access to
information concerning bankruptcy, criminal records, and civil court cases.
According to Gary Llewellyn, a decision may be made to replace the other
LexisNexis and the PACER searches with this tool, depending on how it
performs. As with the Google searches mentioned above, the SPS expects to
shift the burden of performing these searches to the new contractor.

       Finally, like ICITAP, the SPS has developed a computerized database to
track clearance requests.23 The database fields include basic demographic
information such as name, date of birth, and social security number, as well as
the clearance access level, employee type (contractor or federal), company, and
country of assignment. The database also tracks the type of investigation
conducted (e.g., NCIC, name, fingerprint) and the dates on which clearance
requests are initiated and completed.

       22 SPS personnel told the OIG that PACER searches are not be conducted on all

candidates because the information the searches produce is highly duplicative of that produced
by the LexisNexis case searches. The periodic searches are being done as a check on the
LexisNexis process.

       23 Before the new database was up and running, the SPS began tracking clearance
requests using an Excel spreadsheet. Gary Llewellyn told the OIG that for the time being, he
has instructed the Personal Security Assistants to continue to enter data regarding security
packets on the spreadsheet as a backup to the new database.


                                             39
VIIII. OIG RECOMMENDATIONS

       While we trust that the new processes and procedures discussed above
will help improve the ICITAP subcontractor clearance process, we believe
ICITAP should take additional steps regarding its clearance process.

     1.   In consultation with SPS, develop and implement a training
          program on the clearance process for all newly hired analysts and
          managers.

     2.   In consultation with the SPS, provide annual, mandatory briefings
          for current staff similar to the June 2004 SPS presentation.

     3.   In consultation with the SPS, develop and distribute to ICITAP
          managers periodic reports on security packet processing, including
          status and time for completion, as well as percentage incomplete,
          accepted, and rejected.

     4.   Ensure that all requests for waivers are made in writing and include
          the reasons justifying the request. In addition, amend the newly
          adopted Standard Operating Procedures to include this
          requirement.

     5.   Incorporate the current SAIC inquiry regarding civil lawsuits into an
          ICITAP-required form or otherwise take adequate steps to ensure
          that the question is asked of all candidates, whether they are
          recruited by the contractor or by ICITAP directly, and that the
          inquiry continues to be part of the process once a new contract is
          awarded.

     6.   Require the new contractor to develop a web page for subcontractor
          candidates that details the risk assessment and security approval
          process and makes available for downloading the required security
          paperwork.

     7.   Formalize the requirement that written documentation of clearance
          status accompany all Statements of Work submitted for the COTR’s
          signature and ensure that this requirement is referenced and
          explained in the new Standard Operating Procedures.

     8.   In cooperation with the SPS, track and review for a 6-month period
          the type of information that is being produced as a result of the
          Google, LexisNexis, PACER, and Accurint searches, and thereafter
          conduct a cost-benefit analysis of continuing to conduct the various
          searches. As part of this assessment, ICITAP should consider


                                     40
     whether distinctions should be made among candidates based both
     on their backgrounds and on the type of position they will fill. For
     example, it may be appropriate to more closely scrutinize the
     backgrounds of candidates who are being considered for high-profile
     or longer-term assignments like those undertaken by the members
     of the McCotter and Bartlett Teams, as well as those candidates
     who have served as high-level administrators during their careers.

9.   Ensure that all candidates are informed about which searches will
     be performed as part of the background clearance process.

10. Draft and adopt clear guidance regarding how the searches are to
    be performed and what types of information will be considered
    disqualifying.

11. In order to create a pool of readily available candidates for ICITAP
    programs and to simplify the clearance process, create and
    maintain, or require the contractor to create and maintain, a
    database of subcontractors who have received security clearances.




                                41
Exhibit 1a: ICITAP Organizational Chart




                  42
Exhibit 1b: Office of Administration Organizational Chart




                           43
Exhibit 2: Criminal Division Administrative Policy Memorandum 60-3




                               44
45
46
47
48
49
50
51
52
53
54
Exhibit 3: Questionnaire for Public Trust Positions




                        55
56
57
58
59
60
61
62
63
64
65
Supplemental Questionnaire for Selected Positions




                      66
FBI Fingerprint Cards, FD-258




             67
Exhibit 4: Request for Subcontractor Clearance (1998)




                         68
Exhibit 5a: Photograph of Abu Ghraib Cell Block Prior to Reconstruction




                                  69
Exhibit 5b: Photograph of Abu Ghraib Cell Block After Reconstruction




                                70
Exhibit 6: Request for Subcontractor Clearance (2004)




                         71
72
